<html>
<title> - FULFILLING THE HUMANITARIAN. IMPERATIVE: ASSISTING VICTIMS OF ISIS VIOLENCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 FULFILLING THE HUMANITARIAN IMPERATIVE: 
                  ASSISTING VICTIMS OF ISIS VIOLENCE

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2015

                               __________

                           Serial No. 114-172

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
97-859PDF                         WASHINGTON : 2016                          
                                 
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS,                    AMI BERA, California
    Tennessee<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Gregory H. Stanton, Ph.D., president, Genocide Watch.............     6
The Most Reverend Bishop Francis Kalabat, Chaldean Eparchy of St. 
  Thomas the Apostle in America..................................    13
Mr. Mirza Ismail, founder and chairman, Yezidi Human Rights 
  Organization-International.....................................    21
Mr. Carl A. Anderson, supreme knight, Knights of Columbus........    28
Mr. Noah Gottschalk, senior policy advisor for humanitarian 
  response, Oxfam America........................................    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Gregory H. Stanton, Ph.D.: Prepared statement....................     9
The Most Reverend Bishop Francis Kalabat: Prepared statement.....    16
Mr. Mirza Ismail: Prepared statement.............................    25
Mr. Carl A. Anderson: Prepared statement.........................    31
Mr. Noah Gottschalk: Prepared statement..........................    51

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  World Magazine article, ``Christians Martyred by the Islamic 
    State''......................................................    72
  Oxfam Briefing Note--Solidarity with Syrians...................    77

 
                      FULFILLING THE HUMANITARIAN.
                    IMPERATIVE: ASSISTING VICTIMS OF
                             ISIS VIOLENCE

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2255 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order, and good 
afternoon to everybody. Thank you for being here.
    Each day, our newspapers, magazines, radios, and television 
screens are filled to overflowing with images of people fleeing 
territory controlled by the Islamic jihadist group known as 
ISIS. More than half of the 653,000 refugees, an estimated 53 
percent in Europe, are from Syria alone according to the U.N. 
High Commissioner for Refugees.
    While violence plays the major part in the impetus of 
Syrians to leave their homes, Shelly Pitterman of the UNHCR 
testified at a hearing I chaired on October 20th that the main 
trigger for the flight for refugee camps or shelter in nations 
like Jordan is the humanitarian funding shortfall. In recent 
months, he told us, the World Food Programme cut its program by 
30 percent, and the current Syrian Regional Refugee and 
Resilience Plan for 2015 is only 41 percent funded. The UNHCR 
expects to receive just 47 percent of the funding it needs for 
Syria over the next year.
    One year ago this month, the U.N. Office for the 
Coordination of Humanitarian Affairs issued a report that 
detailed the worsening humanitarian situation in Syria. An 
estimated 12.21 million people were in need of humanitarian 
assistance including 7.6 million IDPs, or internally displaced 
people, and more than 5.6 million children in need of 
assistance. An estimated 4.8 million people were in need of 
humanitarian assistance in hard to reach areas and locations. 
Those numbers definitely have not improved as the conflict has 
continued and worsened.
    By the third International Pledging Conference on March 31, 
2015, the crisis had become the largest displacement crisis in 
the world with 3.8 million people having fled to Lebanon, 
Jordan, Turkey, Iraq, and Egypt in addition to those internally 
displaced. In support of the Syria Response Plan and Regional 
Refugee and Resilience Plan, international donors pledged $3.68 
billion in money. However, according to the Financial Tracking 
Service at the U.N. Office for the Coordination of Humanitarian 
Affairs, only $1.17 of the $2.89 billion has been received by 
December 7. That constitutes only about 41 percent of what was 
considered necessary by that agency.
    Today's hearing will focus on the plight of persecuted 
minorities, religious minorities in Syria and in Iraq, which 
today constitutes genocide and the failure of much of the 
international community to live up to their pledges of 
humanitarian assistance, factors which push refugees to Europe 
and beyond. In particular, we will examine violence targeting 
religious minorities such as Christians and Yazidis in 
territory controlled by ISIS in both Syria and Iraq.
    This past September, the Simon-Skjodt Center for the 
Prevention of Genocide at the United States Holocaust Memorial 
Museum undertook a ``Bearing Witness Trip'' to northern Iraq to 
investigate allegations of genocide being committed by ISIS. 
Their report is chilling: ``Our Generation Is Gone: The Islamic 
State's Targeting of Iraqi Minorities in Ninewa.''; and in it 
they talk about severe deprivation, rape, sexual slavery, 
enslavement of many kinds, and murder, perpetrated in a 
widespread and systematic manner that indicates a deliberate 
plan to target religious and ethnic minorities.
    Mirza Ismail, chairman and founder of the Yezidi Human 
Rights Organization-International, will testify today that the 
Yazidis are on the verge of annihilation. Chaldean Bishop 
Francis Kalabat will testify that, ``There are countless 
Christian villages in Syria who have been taken over by ISIS 
and have encountered genocide and the Obama administration 
refuses to recognize their plight.''
    Carl Anderson, supreme knight of the Knights of Columbus, 
calls on the Obama administration to publicly acknowledge that 
genocide is taking place against the Christian communities of 
Iraq and Syria. Mr. Anderson will testify that ``Vulnerable 
religious minorities fear taking shelter in the camps of the 
United Nations High Commissioner for Refugees because of 
religiously motivated violence and intimidation inside the 
camps.''
    Syrian Christians, he notes, and other vulnerable 
minorities are disproportionately excluded from the U.S.-Syrian 
refugee resettlement program due to reliance on a functionally 
discriminatory UNHCR program, so that is where the mistake is 
initially made and systematically Christians are excluded.
    Dr. Gregory Stanton, the president of Genocide Watch and 
research professor at George Mason University, in his testimony 
entitled, ``Weak Words are Not Enough,'' says State's failure 
to call ISIS' mass murder of Christians, Muslims, and other 
groups in addition to Yazidis, by its proper name ``genocide'' 
would be an act of denial as grave as U.S. refusal to recognize 
the Rwandan genocide in 1994.
    And I would note parenthetically that I was in Congress in 
1994. I was at the U.N. Commission for Human Rights in Geneva 
and worked side by side with those in the administration at 
that time, and there were some who demanded that the Rwandan 
genocide be called what it was and there was refusal. The same 
thing happened in Bosnia and it happened elsewhere, and that 
terrible experience now replays itself over and over again and 
it is replaying now. Ethnic cleansing, what does that mean, as 
Dr. Stanton says in his testimony.
    The administration reportedly is considering declaring the 
ISIS mistreatment of Yazidis to be genocide. Frankly, that is 
good; I encourage that. But there is no indication that 
Christians will be included. That is absurd and unconscionable. 
Such an action would be contrary to the facts and tragically 
wrong.
    Last year the U.N. resolution determined about the Yazidis 
and Christians were being particularly targeted by ISIS. A 
group of Christian leaders last week wrote to Secretary of 
State John Kerry to present their case for treating Christians 
the same as Yazidis in this matter but they have not yet 
received the reply, and hopefully it will be a positive one.
    As we attempt to end the ISIS threat, we must consider how 
to help ensure religious pluralism in Syria and Iraq in the 
future, and that will not be an easy task since animosities 
have grown during the conflicts in Iraq and Syria exponentially 
during the rise and the reign of terror of ISIS. Nevertheless, 
unless we consider how to make these lands safe for religious 
minorities, we will continue to see them chased out of their 
traditional areas even if there is no ISIS.
    Our witnesses today will provide us a picture of the 
ongoing struggle, provide us hopefully with some 
recommendations that can be acted upon, being faced by these 
religious minorities, and hopefully they will help us to begin 
to make this issue more prominent and that the designation of a 
Christian genocide will be declared.
    I would again note parenthetically, several years ago I 
chaired a hearing, and I have had several since, on the plight 
of Christians. And we had a representative from the 
administration, who when instance after instance was detailed 
by the other witnesses he said over and over again--and I don't 
want to embarrass him--but he said over and again, let me take 
that back and take a look at that, as if there was a lack of 
awareness about the gravity of people being beheaded and told 
you either change your religion on the spot here or you will be 
slaughtered.
    In like manner, we had a witness that I met in an IDP camp 
in Jos, Nigeria. That man actually had a Boko Haram terrorist 
put an AK-47 to his cheek, on the ground, and said, you 
renounce your faith as a Christian or I am going to blow your 
brains out. He said, I am ready to meet my Lord. His wife was 
pleading and sobbing. He pulled the trigger; the Boko Haram 
terrorist blew half his face away. When he testified, you could 
have heard a pin drop here, he had nothing but love and 
compassion for his oppressor, and yet and he was the one, and 
thank God he survived, to tell that story.
    We need to first recognize what is actually going on, call 
it what it is. We didn't do it in Rwanda, we haven't done it in 
other places, and do it now.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair, always, for your leadership 
on these issues. And as you mention the plight of Christians 
both men and women, I did want to focus for a bit on the 
situation faced by women. We read, see, and so much hear about 
the unspeakable indignities, persecutions, faced daily in the 
region by women. I would be remiss if I didn't raise the 
situation, especially in war-torn Syria and destabilized 
pockets in the immediate region, and I commend the efforts of 
the U.N. Population Fund to address the needs of this critical 
minority. Thousands of women live in fear every day and night. 
I am talking about the everyday indignities faced by mothers 
unsure of how they will feed their children on any given day, 
or a new mother facing hard choices on how to best ensure her 
infant child and her other children stay in an unsafe battle 
zone that they know or risk the unknown by moving to another 
safer region. These are just some of the real stories I have 
read and heard from the U.N. Population Fund about their 
critical work in Syria and the region addressing the needs of 
women and girls in the region, whether they be from a religious 
and/or cultural minority or from the majority Muslim 
population.
    I am proud to say that the U.S. supports the work of the 
U.N. in both Syria and the region, women such as an unnamed

          26-year-old woman who was kidnapped, sold, and 
        sexually abused for 9 months in northern Iraq who 
        escaped and found shelter at one of the internally 
        displaced camps. She was severely hurt physically, 
        emotionally and mentally. She spent her first days in 
        the camp depressed and helpless before she learned 
        about the U.N. Population Fund supported women at the 
        women's support center through outreach mobilizers.
          The social workers at the women's support center 
        immediately offered counseling and healing sessions. 
        Her condition improved noticeably, and eventually she 
        was enrolled in training to upgrade her skills in 
        sewing. She not only completed the courses 
        successfully, but also was promoted to become a 
        trainer. She is now leading classes for other women and 
        girls, including survivors.
          (The U.N. Population Fund Regional Situation Report 
        for Syria Crisis.)

    For the last month alone they delivered 298,000 services to 
Syrians affected by the conflict. So although we don't have 
women on the panel today, I am hoping that the representatives 
here will include the plight of women in their testimony. Thank 
you very much, and I yield back.
    Mr. Smith. Thank you very much. I yield to Dana 
Rohrabacher, chairman of the Europe, Eurasia, and Emerging 
Threats Subcommittee.
    Mr. Rohrabacher. I would like to thank you, Mr. Chairman, 
and your ranking member, for this hearing today. American 
people need to understand the magnitude of the crime that is 
going on today in the Middle East and is spreading in different 
parts of the world. We felt it in San Bernardino in my state 
just a few days ago. There is slaughter of innocent people, and 
in this slaughter there seems to be not just random or not just 
a rage that is being experienced at a moment where someone 
kills someone else, but it is a well thought-out effort to 
terrorize the world. And we need the good people of the world 
of every faith, Muslims, Christians, Jews, and Hindus and the 
rest, the good people of the world need to stand together on 
this.
    And I have a piece of legislation that is aimed 
specifically at those people who have been targeted for 
genocide and publicly targeted, meaning the Christians and the 
Yazidis have been actually singled-out for being eliminated 
from the planet. And my bill would just say that--it is H.R. 
4017--that if Christians and Yazidis are trying to come to the 
United States through the regular refugee and immigration 
procedures, we should recognize just like we should have 
recognized that the Jews were a special case in 1939, instead 
of sending them back saying you are not going to get any 
special treatment from us, what we need to give those people 
who actually are targeted for genocide, as has been announced, 
a special, basically a priority status of those who are trying 
to come to the United States. But the American people need to 
know what is going on. The people of the world need to know. 
The United States also can't carry this.
    One last idea, and I will be interested to hear the points 
of view of our colleagues today and our people who have come 
here to give us testimony, and that is the United States, yes, 
what about other, what about recommending that other people 
start bringing in Christian and Yazidis refugees? For example, 
Russia has introduced a very powerful weapon systems to that 
region, and if they could do that I would call on the people of 
Russia and the Government of Russia to bring in Christian 
refugees from Syria and elsewhere where Christians are being 
murdered for their faith. Let's see not only military action, 
but let's see some humanitarian action on the part of Mr. 
Putin's Russia.
    So with that said, I am looking forward to the testimony.
    Mr. Smith. Chairman Rohrabacher, thank you very much. I 
would like to introduce our distinguished panel, beginning 
first with Dr. Gregory Stanton who is the president of Genocide 
Watch and the research professor in Genocide Studies and 
Prevention at the Institute for Conflict Analysis and 
Resolution of George Mason University in Virginia.
    Dr. Stanton founded Genocide Watch in 1999, was the founder 
and director of the Cambodian Genocide Project, and is founder 
and chair of the International Campaign to End Genocide, the 
world's first anti-genocide coalition. From 2007 to 2009, he 
was president of the International Association of Genocide 
Scholars.
    Dr. Stanton previously served in the U.S. Department of 
State where he drafted the U.N. Security Council's resolutions 
that created the International Criminal Tribunal for Rwanda, 
the Burundi Commission of Inquiry, and the Central African Arms 
Flow Commission.
    We will then hear from Bishop Francis Kalabat, who heads 
the Chaldean Eparchy of Saint Thomas the Apostle in Detroit. It 
is made up of 12 parishes serving a Chaldean Catholic 
population of approximately 200,000 people. There are a large 
number of diaspora Iraqi Christians who stay in touch with and 
support the Chaldean Church in Iraq proper, and more than half 
of those remaining of approximately 250,000 faithful have 
sought refuge from the ravages of ISIS in Kurdish Iraq, home of 
the Chaldean Archdiocese of Erbil, the Kurdish capital.
    We will then hear from Mr. Mirza Ismail who is chairman of 
the Yezidi Human Rights Organization-International in Ontario, 
Canada, which he founded in 2009 to protect the rights of the 
Yazidi people worldwide. This organization has worked with the 
Government of Canada to attain refugee status for Iraqi Yazidis 
there. Prior to founding that organization he was chairman and 
co-founder of London Yezidis Community-Canada. He has written 
and given interviews extensively on the plight of the Yazidis 
in Iraq. He is from Iraq himself, but now lives in the United 
States.
    We will then hear from Carl Anderson who is the supreme 
knight of the Knights of Columbus where he is chief executive 
officer and chairman of the board of the world's largest 
Catholic, family, fraternal service organization which has over 
1.9 million members.
    Mr. Anderson has had a distinguished career as a public 
servant and educator. He has worked in various positions of the 
Executive Office of the President of the United States 
including special assistant to the President and acting 
director of the White House Office of Public Liaison. He worked 
on the Senate side as a key staffer there, and also as a member 
for nearly a decade for the U.S. Commission on Civil Rights.
    And then we will hear from Mr. Noah Gottschalk who is the 
senior policy advisor for humanitarian response at Oxfam 
America where he focuses on Syria, Iraq, Sudan, South Sudan, 
and the Democratic Republic of the Congo, as well as border 
conflict and human rights issues. He has more than a decade of 
experience working with children, families and communities 
affected by conflict in these countries and elsewhere in the 
Middle East and in Africa. He specializes in gender issues and 
forced displacement and in the return and reintegration of 
refugees and internally displaced persons. He serves, he 
traveled on Oxfam Syria policy lead in mid-2013 and travels 
regularly to Jordan and to Lebanon as part of Oxfam's work with 
refugees from Syria and host communities.
    Dr. Stanton, the floor is yours.

  STATEMENT OF GREGORY H. STANTON, PH.D., PRESIDENT, GENOCIDE 
                             WATCH

    Mr. Stanton. Chairman Smith, Ms. Bass, and Mr. Rohrabacher, 
who Jack Wheeler introduced me to at a party many, many years 
ago, it is an honor to testify before this subcommittee that 
has always been a champion of U.S. leadership in global human 
rights.
    Soon the State Department is likely to recognize the Yazidi 
genocide, based not only on an excellent U.S. Holocaust 
Memorial Museum report but also on the many news reports that 
show ISIS as unquestionably committing genocide against the 
Yazidis. But also the State Department is debating whether to 
also state that ISIS is committing genocide against Christians, 
Shia Muslims, Sabian Mandaeans, Turkoman Kakai, and other 
religious groups.
    Genocide Watch said in 2014 that ISIS is committing 
genocide against all these groups and warned many policymakers 
about that. Since then, thousands more Yazidis, Christians, 
Shia Muslims and others have been murdered. Such acts of 
genocide are strong proof of ISIS' intent to destroy in whole 
or in part these religious and ethnic groups.
    Why is it important to use the word ``genocide''? Some 
people say, well, we can just call them crimes against 
humanity, and after all the penalties are the same in the 
International Criminal Court, pretty much, so what difference 
does it make? Well, some epidemiologists and I actually did a 
study of this in 2007. We counted up the number of times the 
words ``genocide'' and ``ethnic cleansing,'' which was at that 
time very popular, were used in four genocides--in the case of 
Rwanda, in the case of Bosnia, the case of Kosovo, and then of 
Darfur.
    What we discovered in every single case is as long as it 
was called ethnic cleansing no action was taken. When genocide 
became the word that described the crime then action would be 
taken. And in fact, in the report that I have submitted to you 
I have actually got the dates exact about when the term 
``genocide'' began to be used and when our action began. And it 
is striking what a difference that word makes.
    Now the reason why it is so powerful is, and that is why 
Raphael Lemkin invented the word, is that genocide actually 
means the destruction of a people of a nation, of a whole group 
of people. And it may not be the whole group, it can be a part 
of the group; that is often forgotten. But it therefore 
impoverishes the entire human race. It is not just a crime like 
some of the other crimes of humanity, this is a crime against 
the entire future of the human race when you try to eliminate a 
people.
    Now fortunately in this case the U.S. is already taking 
forceful action to defeat ISIS, as we should, and I only want 
to just make an argument that we have adequate proof already of 
the intent to commit genocide by ISIS against Christians and 
against Shia Muslims. The evidence of ISIS genocide against 
Christians is put into question in the Holocaust Museum's 
report by the fact that they fell through, they accepted the 
ISIS propaganda that Christians can pay a jizya tax and thereby 
be spared from being killed.
    Well, it is an ISIS lie. The truth is the ISIS tax is so 
high that few can pay it and so they are beheaded, or even more 
likely crucified, if they will not renounce their faith in 
Jesus Christ and convert to Islam. So I would argue very 
strongly that all of these groups already have plenty of 
evidence of the intent to destroy their group in part, and they 
should be included in the finding of the State Department.
    There are two especially important reasons why the State 
Department should declare that these groups are targets of 
genocide. First of all, as Congressman Rohrabacher has 
suggested, the term ``genocide'' makes members of such groups 
much more likely to receive the preferential treatment as bona 
fide refugees that they should receive under the U.N. 
Convention and Protocols on the Status of Refugees to which the 
U.S. is a state party, and also under the refugee laws of the 
United States. It will be a huge help to Christians to be able 
to be recognized as people having a well-founded fear of 
persecution on the basis of their religious faith.
    And the second reason is that the word ``genocide'' more 
strongly justifies our broad coalition for military support for 
Kurdish and Iraqi forces to defeat ISIS and, would you believe 
it, in this case also to even join with another country that 
would defend Christians, as Congressman Rohrabacher has 
suggested, namely Russia. It justifies also our arming and 
training militias of these targeted groups for self-defense, 
which is always the best defense against genocide.
    So we commend the congresspeople who have introduced H. 
Con. Res. 75 which declares that genocide is being committed 
against these groups. We commend the congresspeople who have 
introduced H. Res. 447 that is specifically aimed at the plight 
of women that Congresswoman Bass has particularly pointed out 
because women are treated as sex slaves by the ISIS group; it 
is a whole system of sex slavery. And we also commend 
Congressman Rohrabacher for his bill, H.R. 4017. Thank you very 
much.
    [The prepared statement of Mr. Stanton follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Smith. Dr. Stanton, thank you very much.
    Bishop?

STATEMENT OF THE MOST REVEREND BISHOP FRANCIS KALABAT, CHALDEAN 
          EPARCHY OF ST. THOMAS THE APOSTLE IN AMERICA

    Bishop Kalabat. I would like to take this opportunity to 
thank Chairman Smith and Ranking Member Bass as well as the 
other distinguished members of the subcommittee. Thank you very 
much for having us here before you today. This hearing couldn't 
come at a more critical time as it elevates the responsibility 
to protect the most vulnerable ethno-religious populations in 
Iraq and in Syria.
    I would like to mention, when I mention Christians, it will 
include Chaldeans, Assyrians, Syriac-based Christians who to 
this day still speak the Aramaic language, the language of 
Jesus Christ, and uphold an ancient culture and identity. This 
as we speak is under threat of extinction in that region. Iraq 
and Syria's Christians are part of the original inhabitants of 
ancient Mesopotamia, the cradle of civilization, who played a 
crucial role in the advancement of the sciences and 
philosophies of the region and even had a great influence on 
the West.
    Since the fall of Mosul in early June 2014, Christians have 
endured targeted persecution in the form of forced 
displacement, sexual violence, other human rights violations. 
All 45 churches and monasteries around Mosul fell to the hands 
of ISIS, which subsequently removed the buildings' crosses, 
burned, looted, and destroyed much of these properties. By late 
July, the last of the Christians in Mosul escaped the city 
following an edict issued by ISIS offering minorities the 
option to either convert to Islam, pay a tax, flee, or be 
killed leading to a modern-day genocide.
    Before Iraq, ISIS had committed horrible genocidal 
atrocities against the Christians in Syria. Although I 
represent and will speak about the Christians, ISIS has 
committed horrific atrocities against the Yazidis of which my 
fellow brother sitting next to me will be talking in more 
detail about, and other sects including Muslims themselves. But 
I am here to represent the Christians.
    It is important to recognize that the atrocities in Iraq 
began as early as 2005. This preceded ISIS. Christians and 
other minorities in Iraq have experienced their own slow and 
perpetual genocide. I wish to note that the Obama 
administration, including President Obama himself, have 
neglected to mention that the ISIS atrocities were committed 
against Christians. Time and time again they rightly mention 
atrocities committed in Iraq against the Yazidis, absolutely, 
and they are horrific, but there are also atrocities of rape 
and killings and crucifixions of Christians, beheadings, 
hangings that the Syrian and Iraqi Christians have endured and 
they are intentionally omitted. I hate to say this, but this 
they do to their own shame.
    There are more than 150,000 Iraqi Christians who are now 
displaced in northern Iraq or are refugees in other countries, 
such as approximately 35,000 refugees in Jordan, 60,000 
refugees in Lebanon, 30,000 in Turkey, who are being 
victimized--and I hate to say this--by the Obama administration 
in not recognizing their suffering. There are countless 
Christian villages in Syria who have been taken over by ISIS 
and have encountered genocide, and the Obama administration 
again refuses to recognize their plight. And again I say, shame 
on you.
    Speaking of these refugees, I do want to take the 
opportunity to recognize Jordan, Lebanon and Turkey. They have 
been overwhelmed by these refugees and yet they have never 
closed their doors. And not only the Christian refugees, the 
Muslim refugees, the Yazidi refugees, all other minorities as 
well, they have never closed their doors. And especially I want 
to recognize Turkey went out of their way to grant them free 
medical needs, free education, countless other opportunities by 
an act of Parliament--that is huge on the country--to all Iraqi 
refugees.
    But this also brings me to a very sensitive issue. Should 
these refugees be brought to the United States, and if so 
should we differentiate between Muslim, Christian or Yazidi 
refugees? In my mind it shouldn't be an issue because the other 
Middle Eastern countries should have stepped up as well. Why is 
it only the West other than the three countries that I 
mentioned?
    Here is my point. Where is the best place for a Muslim 
Syrian refugee to settle, Kuwait or Germany? Saudi Arabia or 
Canada? Qatar or America? My point, it is much easier for an 
Arab refugee to start over in a country where the language is 
the same, culture is similar and the official religion of that 
country is the same. Of course there is always that identifying 
differentiation between the Sunni and the Shiite.
    Where is the best place for a Yazidi or a Christian 
refugee? What ISIS was able to do is the Christian does not 
feel safe, neither does the Yazidi in his own country. 
Targeting of the Christian for rape, loss of property, 
killings, et cetera, as well as the Yazidi, has caused a loss 
of trust. Christians have not been part of any terrorist 
activity, but instead of have been the targets of terrorist 
activities. And now they are being looked at as possible 
terrorists when they are also lumped and they are told that you 
can't come to any of these, at least to the United States. This 
is simply unfair on top of everything that they have gone 
through. Go back.
    But shouldn't it be the same for a Muslim anywhere in the 
Middle East? I ask, where is Kuwait in all of this? Where is 
Saudi Arabia? Where is Qatar? Where is Bahrain? Arabs pride 
themselves on what is called ``Arab Hospitality,'' which 
includes the proper treatment of those who are needy. What 
happened to welcoming them as guests and sharing with them 
their needs? The Muslim faith is very clear about this as well. 
Where are they? I speak this to their shame as well.
    Does this mean that no Muslim Syrian or Iraqi refugee 
should enter a Western country? No, absolutely not. I don't, 
not at all. I merely am saying that it would be a much easier 
task, and I believe many if given the opportunity would prefer 
to remain in a safe Middle Eastern country than go to Sweden 
and feel lost. Do I say all? No. But today it is not even an 
option, and again I say to their shame, who have lost their 
Arab dignity and Muslim faith, the reason is these refugees are 
seen as surplus, undignified, excess trash. They don't want 
them in their countries.
    Possible solutions. First, the U.S. Government needs to 
continue to work with the United Nations and other churches, 
charities, private corporations. We need to find aid. The 
numbers that were mentioned by Chairman Chris Smith are just 
beyond understanding especially in places like Syria. The basic 
needs of these human beings are not being met. Secondly, the 
U.S. Government should not turn a blind eye to the genocidal 
atrocities. Proclaim it for what it is. If it is not, then it 
is not. If it is, then it is. Truth will set you free, a famous 
man once said. Autonomous regions for Christians is a third 
possibility. They need safety. If we want them to live in 
safety we need to provide it for them. Short of a genuine 
solution, Christians and other ethno-religious minorities of 
Nineveh will become extinct. Thank you for your time.
    [The prepared statement of Bishop Kalabat follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Bishop, thank you so very much for your very 
powerful words, your recommendations, and then your bottom 
line, extinction. This is an existential threat if ever there 
was one and you have made your case very powerfully.
    Mr. Ismail, the floor is yours, and I understand you do 
have some photographs you would like to show. And I would say 
with all respect to this reality, just like the Holocaust and 
so many other atrocities committed by mankind over the 
centuries, I think it is important that people see what we are 
actually talking about. So if somebody might be offended, 
please don't look at the monitor.
    Mr. Rohrabacher. Mr. Chairman, we only have about 10 
minutes, or less than 10 minutes for the vote. I would 
certainly like to hear the testimony and see the pictures.
    Mr. Smith. Okay, then I think my friend and colleague makes 
a very good point. Rather than rush, we stand in a brief 
recess. There are two votes. Hopefully within about 15 or 20 
minutes we will be back. But thank you for your patience. We 
stand in recess.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting, and we 
have been joined by two distinguished members. Dr. DesJarlais, 
who is a member of our subcommittee, and any comments that he 
might want to make or wait until--and Trent Franks who actually 
is the head of the Religious Freedom Caucus here in the House 
of Representatives and has spoken out unceasingly about the 
slaughter of Christians in Syria and Iraq. Doctor? Okay, or 
Trent?
    Mr. Franks. Well, first of all, I want to thank Chris 
Smith. I think that he is the most persistent and committed 
voice for human rights in the United States Congress. And for 
all the people here on the dais here, and I especially want to 
appreciate those people who have come here to give voice to 
those who can't be here and to those who are either no longer a 
part of the human family because their lives have been taken 
from them or because they just don't have the opportunity to 
speak to the world like all of you do.
    And I think it is noble, I think it is seen by God himself, 
and I think that only eternity will discover your impact or 
your reward for what you do. I know that it is as much a part 
of the American ideal as anything, this notion that all human 
beings bear the ``Imago Dei,'' the Image of God, and therefore 
their creation and their being part of God's plan for this 
world holds them up to such a value that it is beyond any of us 
to articulate that.
    But I am also so broken that sometimes those of us that 
live in this thing called human family miss that. And there are 
those that find themselves in the shadows of the world and of 
the human experience and never have the opportunity to really 
be seen for who they are. And I take great comfort in the 
notion that God sees each one of them, and if time turns every 
star in heaven to ashes that eternal moment of his deliverance 
will finally come to each one of them whether they were 
delivered here on this earth or not. But I am grateful that you 
folks are here today.
    I think that there are two relevant suggestions that are at 
least part of my contribution to this effort, and number one is 
that when we see malevolence and evil desecrate the innocent it 
is incumbent upon those of us who are part of the arsenal of 
freedom to respond and to make sure that it doesn't happen. And 
to make sure that those who do desecrate the innocent realize 
that they do so at great risk to themselves and they can never 
consider themselves with impunity to this country's commitment 
to protecting the innocent. And I feel like that in the case of 
Iraq and ISIS that that responsibility was unconscionably 
failed and fell so short of what it should have been, even 
though that there were a lot of voices trying to express the 
need to respond to this evil before it was able to manifest as 
it most certainly did.
    And then the second thing, when these things do happen that 
I believe the people of the free world have a strong 
responsibility to make it clear to the world that these 
innocents did not die in vain nor did they suffer in vain nor 
were they tortured in vain. In other words that we in this part 
of the world will respond and we will hold those not only 
accountable, but we will hold them up to the world in disdain 
those that would have desecrated the innocent like they did.
    And it is important that we don't leave anyone out. 
Certainly the Yazidis, I met a number of Yazidis. We had press 
conferences doing everything we could to bring attention to 
their plight, and we need to hold that up in the strongest 
possible way. These are a peaceful people that just desire to 
live in the light of freedom and try to see their children grow 
and to lay hold on the miracle of life. It is a very 
fundamentally reasonable request that they make.
    And of course, Mr. Chairman, it is important that we don't 
leave out any of the religious groups, whether they are 
Christian, Yazidi, Muslim, whatever they are that they are part 
of the human family and that they should be looked upon as a 
brother and a sister and as a fellow child of God. And that 
means that we should not only stand and do everything we can to 
protect all of them, but we should do everything that we can to 
point out the fate of them.
    And when we make resolutions calling for assigning genocide 
it should include all of those that were victims and I say that 
with the greatest deference and the greatest respect for every 
last one of them, even those that were especially singled out 
for some reason than the other. Those things can be articulated 
in those resolutions, but we should not leave anyone out, 
because to do so is to invite that same group to be attacked 
again.
    And again I have no words, Mr. Chairman, to express how 
deeply I wish that we could have responded better and how I 
wish there weren't evil impulses in the world like ISIS. But I 
will tell you this, truth and time travel on the same road. And 
the truth is that ISIS is evil and they will meet an 
appropriate end, and those that were their victims will find 
themselves at great advantage in the councils of eternity.
    So with that God bless you all and thank you for coming, 
and I again can't express the level of honor and just goodwill 
that is in my heart toward each one of you. Thank you, Mr. 
Chairman.
    Mr. Smith. Mr. Franks, thank you very much. I would like to 
now recognize Mr. Ismail. The floor is yours.

  STATEMENT OF MR. MIRZA ISMAIL, FOUNDER AND CHAIRMAN, YEZIDI 
            HUMAN RIGHTS ORGANIZATION-INTERNATIONAL

    Mr. Ismail. Dear ladies and gentlemen, Mr. Chairman, Mr. 
Smith, committee members, I am honored to be here. Thank you 
for this opportunity to speak at this hearing on genocide by 
ISIS and the refugee crisis. I also want to thank the Holocaust 
Memorial Museum for its recent report asserting that the 
Yazidis are indeed the victims of genocide. The Chaldo-Assyrian 
Christians should have been included in this report. Our loss 
may not be the same, but the ISIS brutal action against both of 
us are the same.
    Ladies and gentlemen, I am here today to speak of 
preventing the annihilation by ISIS of my people, the Yazidis, 
and of the Chaldo-Assyrian Christians, Mandaeans, in Iraq and 
Syria. We Yazidis are desperate for your immediate help and 
support. During our 6,000-year history, the Yazidis have faced 
74 genocides in the Middle East including the ongoing genocide. 
Why? Simply because we are not Muslims. We are an ancient and 
proud people from the heart of Mesopotamia, the birthplace of 
civilization and the birthplace of many of the world's 
religions, and here we are today, in 2015, on the verge of 
annihilation.
    In response to our suffering around the world there is 
profound, obscene silence. We Yazidis are considered infidels 
in the eyes of Muslims, and so they are encouraged to kill, 
rape, enslave, and convert us. On August 2, 2014, on the eve of 
ISIS' attack on the Yazidis in Sinjar region, more than 10,000 
of the local authority forces were present in Sinjar region, 
allegedly there to protect the Yazidis. In the early hours of 
the evening, the Yazidis tried desperately to flee for their 
lives to Mount Sinjar, but the local militia would not allow 
it.
    At about 10:00 p.m., these same local forces who had 
promised to defend us, began to withdraw from the Yazidi 
villages of the southern side of the Sinjar mountain, without 
notifying the Yazidis. They escaped back to the KRG region. The 
Yazidi men begged the local forces for weapons and ammunition 
so that we could defend ourselves from ISIS, but they refused. 
They would not spare even one weapon, not one round of ammo to 
the Yazidi men, women, and children whom they, the local 
militia, had trapped in what was a waiting room for the death 
and carnage at the hands of ISIS. And several Yazidis who 
begged and pleaded for weapons to save themselves and their 
people were killed like dogs by the Peshmergas.
    And so, God help us, on August 3, at around 2:00 a.m. ISIS 
entered Sinjar region; the stage was set for the massacre of 
our people, for we possessed only very basic weapons such as 
AK-47 rifles. The Yazidi women, children, and elderly, and 
empty-handed adults with no means of self-defense at all, tried 
to escape the barbarians and flee to Mount Sinjar. It didn't 
take long, only 4 or 5 hours, for the poorly armed Yazidi 
fighters to run out of ammunition and the region was overun 
with death and ISIS took over Sinjar region. With no means of 
defense, of course the carnage was immense. Thousands of men 
were killed on the spot including the beheading of hundreds. 
The U.N. estimates that 5,000 Yazidis were murdered and 
thousands of women and children taken hostage.
    Then on August 6, 2014, ISIS attacked the Yazidis and the 
Chaldo-Assyrians Christians in the Nineveh Plain. The resulting 
genocide took the lives of thousands of Yazidis and Chaldo-
Assyrian and Shia minority. ISIS has wiped from existence one 
of the most culturally diverse areas across the Middle East. 
Today, hundreds of thousands who are still alive, have taken 
refuge in IDP camps across the Iraqi region and Shia in the 
southern Iraq. They urgently require your help.
    There are thousands of young Yazidi women, girls, and even 
children, who as I speak, have been enslaved and forced into 
sexual slavery. These girls are subjected to daily multiple 
rapes by ISIS monsters. According to many escaped women and 
girls whom I talked to in northern Iraq, the abducted Yazidis, 
mostly women and children, number over 7,000. Some of those 
women and girls have had to watch 7-, 8-, and 9-year-old 
children bleed to death before their eyes after being raped by 
ISIS militia multiple times a day. I met mothers whose children 
were torn from them by ISIS. These same mothers came to plead 
for the return of their children, only to be informed that 
they, the mothers, had been fed the flesh of their own children 
by ISIS. Children murdered, then fed to their own mothers. ISIS 
militia have burned many of them alive for refusing to convert 
and marry ISIS men.
    Young Yazidi boys are being trained to be jihadists and 
suicide bombers. All of our temples in the ISIS controlled area 
are exploded and destroyed. The entire Yazidi population was 
displaced in less than 1 day on August 3, 2014 in Sinjar. The 
Yazidis and Chaldo-Assyrians Christian face this genocide 
together. Why? Again, because we are not Muslims and because 
our path is the path of peace. For this we are being burned 
alive, for living as men and women of peace.
    What I have just recounted to you is what has happened to 
the Yazidis, Chaldo-Assyrians, Sabians, in Sinjar and Nineveh 
Plain, and other minorities; nothing less than genocide, 
according to the U.N. definition of genocide.
    On IDPs and refugee crisis in Iraq, Syria, and Turkey, 
humanitarian aid, while necessary, is not sufficient. Much 
humanitarian aid distributed by the Kurdish regional 
authorities and the Iraqi Government never gets into the hands 
of those who need it, those for whom it was intended, due to 
skimming, corruption, and politics. Some outside observers say 
that as much 90 percent of the humanitarian assistance meant 
for Yazidis and other minorities has never reached their hands.
    There are more than 30,000 Yazidi refugees currently 
languishing in Turkey and Syria. At the top of the threatened 
and persecuted list are the Yazidis, then come the Chaldo-
Assyrian Christians. Five thousand Yazidis were murdered by 
ISIS in August 2014 and 7,000 were enslaved, mostly young women 
and children. Thousands fled to camps where they are abused by 
the Muslim authorities in charge, denied food and medicine 
because they are not their own political parties. Or they 
cannot get into refugee camps at all; consequently, they are 
not certified as refugees since one cannot get refugee status 
without being certified and the Muslims who dominate the camps 
do not want them there.
    The same holds true for the Chaldo-Assyrian Christians who 
have repeatedly been forced to renounce their religion or die. 
Enslavement, rape, hundreds of their churches have been 
desecrated and destroyed. If humanitarianism is the chief 
reason being cited in accepting refugees, the Yazidis, Chaldo-
Assyrian Christians, Mandaeans and other minorities should 
receive priority simply because they are among the most 
persecuted in the Middle East and the ones who have nowhere 
else to go.
    Perhaps the worst camps for the Yazidi refugees in Turkey 
are those that border with Syria, because of the fighting 
between the PKK and the Turkish Government. The Yazidis worry 
about the Russian plane recently downed by Turkey. In the event 
of war between the two countries, Yazidi refugees are afraid of 
being used as human shields. Because of the unsafe situation, 
hundreds of these Yazidis are fleeing for Europe. They are 
seeking safety and a peaceful life and yet hundreds of these 
refugees have lost their lives on the journey, whether in the 
freezer of truck trailers, or by drowning in their tube boats 
in the sea between Turkey and Greece. Others die of starvation 
and dehydration attempting to reach safety by foot. In all 
cases, their desperation is the cause of death.
    I am now pleading with each and every one of you in the 
name of humanity to lend us your help and support at this 
crucial time, to save the indigenous and peaceful people of the 
Middle East--the Yazidis, the Chaldo-Assyrian Christians, the 
Mandaeans, and other minorities.
    Recognize the Yazidi and Chaldo-Assyrian Christian genocide 
and provide international protection so we can live as God 
created us. Concerned nations including the U.S., Canada, UK, 
NATO, and EU member states and the United Nations should make a 
concerted effort to liberate the ISIS detention centers. As 
mentioned, we estimate at least 4,000 are currently held, young 
Yazidi women and children, by ISIS.
    We ask the United Nations, the U.S., Canada, UK, and NATO, 
and other members of the international community, to intervene 
with the Iraqi Government in supporting the creation of an 
autonomous region for the Yazidi, Chaldo-Assyrians and other 
minorities in Sinjar region and Nineveh Plain, under the 
protection of international forces and directly tied to 
Baghdad's central government. This right is guaranteed under 
the Iraqi constitution, Article 125, but it needs 
implementation. This is the only way we can survive in the 
Middle East.
    We ask the U.S. and all sympathetic governments around the 
world to develop refugee policies that can work quickly and 
effectively to provide new homes for the needy refugees, for 
the Yazidis, for the Chaldo-Assyrian Christian and other 
minorities who urgently need new beginnings, especially the 
abducted ones who were able to escape from ISIS, far away from 
the carnage we witnessed.
    Germany has agreed to accept 1,000 Yazidi refugees who were 
abducted by ISIS and about 700 have arrived already. I hope 
that the U.S. can do the same, and provide social-psycho help 
to the innocent. Humanitarian aid must be sent immediately to 
those internally displaced persons in northern Iraq. There is 
an imminent threat of starvation, dehydration, and diseases 
especially for the Yazidis in Mount Sinjar. As much as possible 
this assistance should come from neutral, non-governmental 
sources to mitigate the diversion of food and water.
    Thank you so much for listening and for the very careful 
consideration going forward. We beseech you with the greatest 
urgency, to help save the remnants of our nation, of the 
Chaldo-Assyrians, of Mandaeans, and other minorities. Only with 
your help, after we have experienced so much death and 
suffering, is there a possibility of a peaceful life going 
forward for our people. Thank you so much.
    [The prepared statement of Mr. Ismail follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much for that very powerful 
testimony. We are joined by Mark Meadows, vice chairman of the 
committee.
    We will go to Mr. Anderson now.

 STATEMENT OF MR. CARL A. ANDERSON, SUPREME KNIGHT, KNIGHTS OF 
                            COLUMBUS

    Mr. Anderson. Mr. Chairman, thank you very much for this 
hearing, and thank you for the opportunity to appear before the 
subcommittee to discuss the Knights of Columbus' humanitarian 
aid programs.
    Over the past year our programs have helped to feed, heal, 
shelter and educate many thousands of desperate Christians in 
church-run camps or other private places of refuge in Iraq, 
Jordan, Lebanon, and Syria. We have established a donation and 
news web portal titled ChristiansAtRisk.org, and have to date 
donated over $5 million in direct aid to Christians and other 
persecuted minorities in the region. And we have partnered with 
other organizations such as Catholic Relief Services, Aid to 
the Church in Need, Caritas, and local dioceses in Iraq and 
Syria.
    Our assistance has taken many forms in terms of food, 
shelter, education, and medical assistance. At times we have 
been required to give exceptional care. For example, just 
several weeks ago we helped Katreena, a very sick 15-year-old 
Iraqi girl, by organizing her airlift from a displaced persons 
camp in Erbil. Her life was saved when she was brought to a New 
England hospital for treatment for numerous issues for which 
she could not adequately be treated in Iraq.
    We also are funding the work of a medical clinic in the 
Kurdistan region, which is the first point of contact for many 
Yazidi women who are escaping from conditions of sexual slavery 
there. Through this humanitarian work in the Middle East we 
have made three basic observations and four recommendations 
bearing on U.S. human rights and refugee policy that I would 
like to focus on in my testimony today. In the interest of time 
I will just briefly summarize them.
    The Christian communities of Iraq and Syria, along with 
those of other vulnerable religious minorities, are suffering 
genocide that continues to the present time. We recommend 
therefore that the Congress swiftly adopt H. Con. Res. 75, 
which names and decries the ongoing genocide against Christians 
and other vulnerable minorities in Iraq and Syria. Further, we 
recommend that the United States State Department publicly 
acknowledge that genocide is taking place against the Christian 
communities of Iraq and Syria, including in its reportedly 
impending statement on genocide that according to reports 
refers properly, but only to Nineveh's Yazidi community.
    The United States is rightly viewed, Mr. Chairman, as the 
world's leading defender of vulnerable minorities, and it is 
critically important that our State Department consider the 
best available evidence before issuing a statement that would 
exclude Christians. An official government declaration of 
genocide is an opportunity to bring America's religious 
communities together to pursue the truth, to support victims, 
and to bear witness to the noble principle of ``never again.''
    Last week, the Knights of Columbus sent an urgent letter to 
Secretary of State John Kerry asking for an opportunity to 
brief him about this genocide. This letter was signed by 
Cardinal Donald Wuerl, the Archbishop of Washington, and more 
than two dozen other religious leaders and scholars from across 
the political spectrum and from diverse Orthodox, Protestant, 
Mormon, as well as Catholic faith traditions. A copy of the 
letter is submitted with my testimony as an addendum.
    Third, the Christian communities of Iraq and Syria, along 
with those other vulnerable religious minorities, fear taking 
shelter in the camps of the United Nations High Commissioner 
for Refugees because of religiously motivated violence and 
intimidation that occurs inside the camps. We recommend 
therefore that the United States insists on proper security 
inside the camps and that it identifies ways to ensure that 
Christians and other vulnerable minorities from Iraq and Syria 
are not subject to violence inside the UNHCR facilities, 
including the possibility of providing separate facilities for 
minorities and hiring professional staff that would include 
members of the minority communities.
    The U.S. should require the UNHCR to gather and make public 
along with its other data the religious affiliation of all the 
refugees it serves. To ignore reports of humanitarian problems 
without prompt investigation and corrective action is itself an 
injustice. We have had aid organizations at the camps in 
Jordan, for example, Zaatari and Azraq, where there are 
100,000<greek-l>is a hundred thousand deg. Syrian refugees and 
they are unable to find a single Christian in those camps.
    Our fourth recommendation: Syrian Christians and other 
vulnerable minorities are disproportionately excluded from the 
U.S.-Syrian refugee resettlement program due to a reliance on 
what has become a functionally discriminatory UNHCR program. So 
we recommend that the U.S. Government take immediate action to 
implement its stated policy of prioritizing the resettlement of 
vulnerable minorities including Christians. In addition, we 
recommend that the U.S. Government end its sole reliance on the 
UNHCR for refugee referrals and engage private contractors to 
identify, document and refer Christian, Yazidi, and other 
vulnerable minority refugees from Syria and Iraq who are in 
need of resettlement.
    In conclusion, permit me to observe that the near complete 
dependency of these refugees on our help and that of other 
private charities to meet their essential needs will continue 
for the foreseeable future. Therefore, the policy 
recommendations we have mentioned just now are urgently 
necessary. And it should be noted obviously that the Christian 
communities and other vulnerable minorities have not taken up 
arms on any side of the violence. They have been peaceful.
    Finally, let me just mention again Pope Francis has been in 
the forefront in calling attention to this ongoing crisis, 
especially during his visit to the United States. He has said 
what is happening to these Christians and other religious 
minorities is ``a form of genocide and it must end.'' And 
finally, if you permit me one final request in closing, I would 
ask you to consider special funding to investigate and obtain 
documentation and evidence of the crime of genocide that is 
occurring in Syria and Iraq. We need to investigate and 
preserve that evidence now before it disappears if we are going 
to move forward seriously on the issue of genocide in this 
region. Mr. Chairman, thank you very much.
    [The prepared statement of Mr. Anderson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Anderson.
    And our final, Mr. Gottschalk.

  STATEMENT OF MR. NOAH GOTTSCHALK, SENIOR POLICY ADVISOR FOR 
              HUMANITARIAN RESPONSE, OXFAM AMERICA

    Mr. Gottschalk. Thank you very much, Mr. Chairman, Ranking 
Member Bass and members of the subcommittee. It is an honor to 
be here today to testify on the humanitarian situation in Syria 
and Iraq and on what we can do to better assist victims of the 
ongoing conflict in both countries.
    My testimony is drawn from several months spent over the 
last few years speaking to civilians caught up in these 
conflicts as well as from the ongoing work of my Oxfam 
colleagues in Syria, Iraq, Jordan, Lebanon, and Turkey where 
they are on the ground providing aid to nearly 1.7 million 
people.
    In my testimony today I will highlight some of the 
humanitarian challenges facing the people of Syria and Iraq and 
what the U.S. can do to better assist them. Oxfam is calling 
for urgent and immediate action by the U.S. and the 
international community to deal with this deepening crisis, 
first, by fully funding the aid response in Syria, Iraq and the 
region; second, by ensuring humanitarian access to those in 
need of aid and offering refuge to those who have fled their 
country; and third, by reviving concerted efforts toward a 
resolution of these crises.
    The statistics in Syria paints a deeply grim picture. I 
have included more detail in my written statement but is worth 
highlighting here that indiscriminate and disproportionate 
attacks are being committed by all parties to the conflict 
including through the use of barrel bombs, mortar attacks, and 
other explosive weapons in populated areas. These types of 
attacks remain by far the primary cause of civilian deaths and 
injuries. Well over half the entire pre-war population of Syria 
has been forced to flee their homes, making Syria the largest 
displacement crisis in the world today.
    As the number of people in need grows, aid from 
humanitarian agencies however is being drastically reduced due 
to funding shortages. The U.S. remains the largest single donor 
to the Syria humanitarian crisis, providing more than $4.5 
billion since the start of the conflict. Yet according to 
Oxfam's analysis, the U.S. is still not meeting its fair share 
of aid to the Syria crisis based on our gross national income. 
This year we have reached approximately 72 percent of our fair 
share. The U.S. must continue to lead by example and encourage 
our allies to follow suit.
    And I will note that I have included in my written 
testimony some of the specifics of other countries and what 
percentages of their fair share that they have met for 
comparison. In Iraq, the U.S. is also the leading donor having 
provided over $\1/2\ million to the humanitarian response over 
the last two fiscal years. However, as in Syria, the scale of 
need is far outpacing aid contributions with Iraq's 
humanitarian appeal only about two-thirds funded. The U.N. now 
estimates that 11 million Iraqis will require some form of 
humanitarian assistance in 2016.
    The humanitarian crisis in Iraq is a protection crisis 
above all else. Today, on the second to last day of the 16 days 
of action against gender violence, we must remember that 1.4 
million Iraqi women remain displaced. And while it is an honor 
to be testifying here amongst such distinguished witnesses, I 
do think it is unfortunate that no women are testifying today, 
particularly to speak on the impact of the conflict on women 
and girls. As we have seen in our work on the ground, gender-
based violence is one of the most significant features of this 
crisis and has a major impact on the ability of women and girls 
in particular to recover from the trauma of conflict.
    The challenges for the people of Syria and Iraq extend 
beyond funding shortages. Inside both countries insufficient 
international aid contributions are compounded by the 
difficulties that far too many civilians have in accessing the 
assistance that is present. In Syria, shifting conflict lines, 
the rise of extremist groups such as ISIS, and restrictions 
imposed by the government on aid agencies have impeded 
humanitarian access. Indeed, as Chairman Smith recognized at 
the start, the United Nations estimates now that more than 4.8 
million people in Syria in need of humanitarian assistance are 
in hard to reach and besieged locations.
    In Iraq, the ability of people to flee to safety is a major 
problem. On my last visit to the country earlier this year, I 
stood on the side of the road with a group of several hundred 
Iraqi children, women and men who had been forced to flee their 
homes in Ramadi. Horrified by the brutality they had witnessed, 
frightened for their friends and neighbors from Christian and 
other minority communities and terrified that they themselves 
would be swept up in the violence, they were now trying to find 
safety, first in Baghdad where they were rejected and then in 
the north of their country.
    One man spoke of his brother being killed and his 
barbershop being burned to the ground. Now with his children 
and wife in tow, he was trying to find refuge with his family 
in the Kurdistan region of Iraq where had grown up and studied. 
But because he is a Sunni Muslim, the authorities were not 
allowing him and many others to enter the region for fear that 
he might be associated with the very extremists who attacked 
his family and destroyed his livelihood.
    Without clear guarantees of safety and enhanced 
humanitarian space, Iraqi families like his will have little 
option but to turn back to areas held by the same extremists 
they seek to escape. No humanitarian efforts, however well 
intentioned, can take the place of an end to conflicts. In 
Syria, far too many powers are fueling conflict rather than 
undertaking earnest efforts to bring it to an end. In Iraq, any 
efforts to restore stability and return populations must be 
accompanied by the provision of genuine physical protection to 
all at-risk communities. Now this includes Sunni Arab 
populations in areas currently occupied by ISIS or communities 
who have fled violence and face risk of reprisal killings, 
threats to safety and further displacement.
    While the persecution of minorities has been the most 
visible and systemic, on all sides of the conflict, civilians 
have been targeted on the basis of group identity--the Yazidis, 
Christians, Turkmen, and even Sunni Arabs. Iraq's social fabric 
has been torn apart. In attempting to help put it back together 
we must make sure that we do not inadvertently stigmatize 
communities which still consider themselves, first and 
foremost, Iraqi. A lasting political solution in both countries 
will enable the return and reintegration of the displaced, but 
this will require a meaningful process of reconciliation and 
genuine safety for all of Syria's and Iraq's citizens.
    Finally, no discussion of the ways to assist Syrians and 
Iraqis would be complete without reference to refugee 
resettlement. Although it will ultimately benefit just a tiny 
fraction of Syrian and Iraqi refugees, America's well 
established, secure and successful resettlement program is 
literally a life and death matter for persecuted women, men, 
and children who have no other means of survival. It is also a 
fundamental expression of our values as Americans to offer safe 
haven to the persecuted, and allows us to show the suffering 
and oppressed around the world the best of who we are as a 
people. Thank you very much, and I look forward to your 
questions.
    [The prepared statement of Mr. Gottschalk follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you for your testimony. I would just point 
out that we had planned on Yazidi women testifying today and 
they couldn't get their visas in time.
    This has not been the first hearing that I have chaired on 
this and it won't be the last. As a matter of fact, we will 
have the administration, or request that they come and provide 
an accounting. Hopefully it will be a positive one where they 
have indeed declared that Christians and other minority faiths 
have been designated the subject of genocide. Yes, the Yazidis 
absolutely, but also these others, and we will hold the 
administration to account.
    When I got word of this about 3 weeks ago myself from 
someone inside the State Department, I immediately put out a 
press release and a statement and tried to contact folks there 
to convey my utter disbelief that this egregious abandonment 
was about to happen. And it was, as Dr. Stanton pointed out, 
eerily reminiscent to what happened in Rwanda when there was 
this foolishness of the greatest degree and unwillingness to 
call what was happening, 800,000-plus dead in Rwanda, a 
genocide.
    And we saw similar actions by the international community, 
including the United States, occur. It was so bad that when 
Kofi Annan went to Rwanda, members of their Parliament stood up 
and turned their backs on him, and a similar sense of disgust 
also was leveled against Bill Clinton. And as you point out, 
Dr. Stanton, we had a hearing on the famous facts where Kofi 
Annan was advised that the genocide was about to occur he 
ignored it. He was head of peacekeeping at the time. And 
General Dallaire suffered immensely emotionally, because he 
probably could have mitigated if not ended that completely.
    So just for the record I would like to include in the 
record a very heartbreaking, but a story, ``Unconquered: 
Christians Martyred by the Islamic State'' that just came out 
in the December 12 issue of World Magazine. They have named 
these unbelievably brave Christians faithful to the end as 
their ``Daniels of the Year.'' So without objection that will 
be made a part of the record.
    Just a few questions because your testimonies were 
brilliant, I believe. They have really laid out and anticipated 
much of what I and perhaps others might have asked.
    But again, Obama and the administration seem to be on the 
verge of getting it wrong. I think the letter that you provided 
as an addendum as part of your testimony, Mr. Anderson, laid it 
out very clearly, and others have done so as well as to how 
that would be a mistake of monumental proportions to exclude a 
group of people who have been targeted for extinction. It is 
not even in part, it is whole. And whole or in part, and even 
the threat of whole in part is the boilerplate language of the 
Genocide Convention. So, I mean, this fits that definition, 
sadly, to a T.
    The abandonment, perhaps some of you or any of you might 
want to speak to the why of it. I can't get my arms around this 
lack of acceptance of reality on the ground that has been 
documented time and time again. Two years ago I introduced a 
resolution and tried to get the administration, I wrote on 
behalf of it in the Washington Post, to create a Syrian war 
crimes tribunal to hold all sides to account for atrocities. 
This was before the emergence of ISIS, September 13th, and put 
in a resolution that would do the exact same thing.
    I have asked Secretary Kerry. We know that the 
International Criminal Court has been very flawed in 
prosecuting anyone--one conviction in over a dozen years. Great 
idea, but it just doesn't have the horsepower or the 
capabilities to do what is right. We had the former chief 
prosecutor of Sierra Leone war crimes tribunal, David Crane, 
testify, and others who gave riveting testimony why a regional 
court would make all the difference in the world. And we are 
losing, as was mentioned, vital information and testimony that 
bleeds out as people move on or die or don't have the 
recollection they might have if it is done sooner rather than 
later.
    I am asking again that the administration work within the 
United Nations Security Council to convene such a war crimes 
tribunal. ICC, they haven't done it. They have one person in 
the DR Congo, a lower-level person that they were able to 
convict. They will look into it, they will issue a report, they 
will go after two people and that will be the end of it. And 
they will never get those two people. Bashir remains in 
Khartoum despite his crimes in Darfur and South Sudan.
    So anyone who might want to hazard a guess as to if this is 
an idea whose time has come? Dr. Stanton indicated that 
already. Carl Anderson, I think you brought up an issue that 
just is beguiling and it begs immediate correction, and that is 
that the UNHCR itself has not been able to provide the 
protection inside the camps, so a place that ought to be the 
place of welcoming becomes a place of continued horror for 
Christians. I promise we will use this subcommittee to look 
into that and push that to the nth degree. The administration 
should be doing the same.
    And I think your point about sole reliance on referrals 
from the UNHCR is an excellent point that needs to be embraced 
immediately because of all this exclusion again of the 
Christians. And of course designation of genocide against 
Christians, like Yazidis and other minority faiths, will make 
the processing of their refugee appeals happen that much sooner 
rather than later. And maybe it might not have happened at all 
without it.
    So those couple of thoughts I can't get my arms around, 
maybe you can, why the exclusion of Christians. It just is mind 
boggling. If anybody wants to hazard a guess, otherwise I will 
yield to my distinguished colleagues.
    Mr. Rohrabacher. Again, thank you for the leadership. Let 
me just note in my 28 years in Congress whenever there has been 
an issue that calls for a moral stand by the United States of 
America, Chris Smith has always led the way and I have always 
been honored to follow him as he led the way. And this is, I 
think, one of those instances of historical significance that 
demands people of a certain moral fortitude to step forward and 
make their moral convictions known on a major contention of the 
day.
    How many, let me just ask the panel. We are talking about 
Christians and Yazidis now, but there are other groups as we 
know that are facing slaughter. But if we don't do what is 
right, if we have an administration in charge of our Government 
now that refuses to recognize that Christians are targeted as 
the Jews were in World War II, how many people is the world 
going to lose? How many Christians? Are we talking about 
millions of people? What is the Christian population of this 
part of the Middle East, and what can we expect if those people 
are not given refuge?
    Mr. Stanton. About 1.5 million in Iraq alone, Christians, 
were there before the second Iraq war. We now have, I think, 
under what, about 100,000 or so.
    Mr. Rohrabacher. And that is just Iraq.
    Mr. Stanton. And that is only, they are in refugees camps 
in Kurdistan, and that is just Iraq.
    Mr. Rohrabacher. Okay, and in Syria and throughout in 
different places.
    Mr. Stanton. Syria, you had 10 percent of the population is 
Christian and they have had to basically flee wherever they can 
go, because not only ISIS has targeted them, but of course the 
Assad regime has bombed so many parts of Syria that they have 
had to flee to Turkey or Jordan.
    Mr. Rohrabacher. So do you have some guesses in terms of, 
or I say educated guesses? So we are talking about over 1 
million or----
    Mr. Stanton. Yes.
    Mr. Rohrabacher [continuing]. One million people dead 
unless we step forward. Is that maybe 2 million people dead?
    Mr. Stanton. Possible.
    Bishop Kalabat. It is also very important to understand 
that ISIS isn't just targeting people in that region. Their 
ultimate aim is the United States, Vatican, Europe. It is the 
world. In establishing an Islamic State right now, that Islamic 
State needs to grow until they can rule the world. So this 
isn't just an isolated group.
    Mr. Rohrabacher. So what we are talking about in the short 
term is that there are maybe 1 million or 2 million people who 
are in danger right now, but what you are saying is unless we 
step up to this part of the challenge----
    Bishop Kalabat. Paris----
    Mr. Rohrabacher [continuing]. There is going to be many 
more millions of people.
    Bishop Kalabat [continuing]. I mean, what we just went 
through just not too long ago.
    Mr. Rohrabacher. Yes. Let me note that I worked in the 
White House. God blessed me with the opportunity of working for 
Ronald Reagan as one of his speechwriters for 7 years, and I 
remember when Ronald Reagan declared that the Soviet Union was 
the focus of evil in the modern era. And let me say, Mr. 
Chairman, that I think that we need to make sure that we 
declare that this Islamic terrorist threat of killing people 
for their faith is now the focus of evil in our era, and call 
upon all good people of every faith to step forward and say 
this will not be tolerated by civilization.
    Just as Communism, which was trying to use terror and 
brutality and the same kind of Stalinist obliteration of 
peoples' lives in order to terrorize the population into an 
atheistic dictatorship, we defeated that evil and we must 
defeat this evil as well. As we all know Ronald Reagan did not 
declare war on Russia and send our military to attack Russia. 
We did not do that. Everybody assumed that that is what would 
happen, that is how we will defeat the Soviet Union. That is 
not what we did. Ronald Reagan mobilized the people of the 
world and especially reached out to those people who were 
struggling against Communism and worked with them and helped 
them not just provide safe haven, but the means to help secure 
themselves from that evil at that day. We need to do that here.
    But let me note, just like Ronald Reagan was really 
criticized for calling the Soviet Union the evil empire, and he 
was being, it was I can remember very clearly, oh my God, what 
did you speechwriters give him; what is going on there? And 
actually Reagan was very much part of the whole effort and he 
knew what he was saying. And the bottom line is by labeling 
this something that people could understand and by mobilizing 
behind it, we were able to destroy the Soviet Union which was 
an evil empire of atheist dictatorship. We were able to 
eliminate that without a war.
    And this President's inability to use the words ``Islamic 
terrorist'' in the same sentence and/or to use the word 
``Christian'' when we are talking about genocidal movements 
that are going on this world today does not give me faith that 
we are going to solve this problem.
    So it is up to us, the U.S., by the way, U.S., United 
States. U.S. is us and what we represent, what does the United 
States represent? Hopefully, we represent every race, religion, 
and ethnic group in the world standing together for higher 
values than those values they had when they left their 
homeland.
    So I thank you all for being with us today. Thank you, 
Chris Smith, for your wonderful leadership on this issue. And 
let me just remind everybody I have H.R. 4017, and I would hope 
that all religious groups get behind this. It says basically 
that if in those areas where we have this genocide taking place 
that those people who are targeted for genocide, particularly 
the Christians and the Yazidis that they will be given a 
priority status for immigration and for refugee status by our 
Government.
    And I do not believe that this is discriminatory against 
anyone. It is simply recognizing that they are the most in 
danger and those are the ones we should focus on first. And 
just as when the Jews came here in 1939 and we turned them 
away, we should not have turned them away saying you are not 
going to get any special favors from us. No, that was horrible 
and we know what happened. Well, now we need to pay particular 
attention to those in danger and to focus on helping them. 
Anybody who can support my legislation, I will be very happy to 
have that too. Thank you.
    Mr. Smith. Gentleman Rohrabacher, thank you very much and 
thank you for your leadership. And added to that Jackson-Vanik, 
most favored nation status vis-a-vis the Soviet Union, was 
predicated on singling out Jewish refuseniks, those men and 
women who were denied and treated harshly by the Soviet regime. 
So it is not a religious test. That is absurd talk.
    Ms. Bass.
    Ms. Bass. I wanted to know if you could talk about the 
refugees that have gone to Europe and what their status is. I 
have been very concerned about that knowing that some have been 
returned back. But I wanted to know if you could speak about 
that. And then also the ones that are wanting to come to the 
United States, where are they now? Are they in Germany? Are 
they in Greece? Where are they now and what is their plight? 
And I open that up to anyone.
    Mr. Ismail. Well, our Yazidi refugees are mostly in Turkey 
and Syria. They are United Nations refugees. But also most of 
the abducted ones are in Iraq, and we hope that the U.S. can do 
something to help those innocents. The U.S. has more than like 
300 million-plus people. I think they are able to provide help 
and support to those innocent people, both Yazidi, Christian 
and other minorities who are facing the genocide.
    Ms. Bass. How many people did you say it is?
    Mr. Ismail. The Yazidi have more than 30,000 in Syria and 
Turkey. But in northern Iraq there are many who are unable to 
prove their identity with passports or other documents, because 
they were attacked in the middle of the night and were running 
for their lives.
    Ms. Bass. How are they faring in Turkey?
    Mr. Ismail. They are not good.
    Ms. Bass. Are they in refugee camps?
    Mr. Ismail. Yes, in June, thousands of them tried to cross 
the Bulgarian border on foot. Many of them were beaten by the 
Turkish Government, but when they came close they did not let 
them come in. They stayed more than 2 weeks outside. They were 
sleeping outside in the streets. So the Yazidis had nothing to 
bring with them. So if you have nothing, you are only relying 
on the donations that the world, the international community is 
providing.
    And the other problem, when it goes to the Iraqi Government 
or Kurdish Government, unfortunately that aid does not reach 
the needy people. And we cannot say that in Iraq. If you say 
it, your family is going to face real consequences by the 
authority based there. Many of those abducted women and girls I 
spoke to, they were afraid to tell me the truth.
    Ms. Bass. They what, I am sorry?
    Mr. Ismail. They were afraid to tell the truth.
    Ms. Bass. Right.
    Mr. Ismail. When they came they were taught what to say and 
how to say. And also, because they saw people from different 
groups who joined up with ISIS who raped them, who tortured 
them, who kidnapped them, who sold them into sexual slavery, 
many of them they were their neighbors. They were beheaded and 
put in a bakery oven by their neighbors. So it is a very 
difficult situation.
    When that delegation visits Iraq, it is accompanied by the 
authorities. They provide what they call the security for them. 
So when there are four or five armed men behind you and then 
you ask me a question and how you want me to answer your 
question, why I cannot say anything.
    Ms. Bass. So what is your thought about what the U.S. 
should do? Should the U.S. bring over, how many, and do you 
have----
    Mr. Ismail. Whatever the possibility we hope that you can 
bring, especially as I said, those abducted women who were able 
to escape on their own, and with their families to provide 
social-psycho help so that they can go back to their normal 
life.
    Ms. Bass. Do you have relationships here like with 
religious organizations or particular states that would receive 
the people? Where would they go?
    Mr. Ismail. Well, the Yazidis are very easy in integration, 
and I think Bishop knows like we have been together for 
thousands of years. That is like brothers and sisters. The 
Yazidis are not against any people, just say we are human 
beings. We are human beings. God created us and we should 
respect God's works.
    Ms. Bass. Yes, I just wondered if there were organizations 
here you were affiliated with that if we were able to bring 
people----
    Mr. Ismail. But we have at least about probably 350 to 400 
Yazidi families here. They are all willing to help.
    Ms. Bass. Where are they, everywhere?
    Mr. Ismail. In Lincoln, Nebraska, in New York, in Houston, 
Texas, and some are based in DC area.
    Ms. Bass. And they have been here for a while?
    Mr. Ismail. Yes.
    Ms. Bass. And they would be willing to receive people?
    Mr. Ismail. There are many of them that were the victims of 
Saddam's attack in 1991.
    Ms. Bass. I see, okay.
    Mr. Ismail. So they sat in a refugee camp probably for 
about, many of them more than 10 years. We have many who were 
sponsored by U.S. Government. So we hope that you could provide 
the same help in bringing these needy people.
    Ms. Bass. Thank you.
    Mr. Gottschalk?
    Mr. Gottschalk. Thank you very much. I just wanted to 
respond to your two questions. First, I had the opportunity to 
travel to Serbia last month and spent some time talking to the 
people who were traveling. Most had come from Turkey via 
Greece, Macedonia, were heading to Serbia, passing through on 
their way to Croatia and then further afield. The people in 
that were probably some of the nicest, friendliest people I 
have ever met in the many years I have been involved in 
humanitarian work, and none of them that I spoke to had any 
interest in going to the U.S. They were looking to go to 
Austria, Germany, Sweden, and Belgium.
    UNHCR actually came out with an interesting study today or 
yesterday, I believe, that highlights the percentage, the very 
large percentage of those who are moving to Europe who are 
actually students. And a lot of the people that I met were 
looking to continue their education. I met people who were 
marketing majors at University in Damascus, people who just 
wanted to find some way of resuming their studies and resuming 
a normal life as best they could.
    On the question about the people who do want to come to the 
U.S., I think it is really important to highlight that the vast 
majority of the 4.2 million refugees from Syria who are being 
hosted in the region are actually staying outside of camps. 
Those people who are registered with the UNHCR are eligible for 
resettlement. They are able to go through that process 
irrespective of being in the camp or not.
    One of the things that we are advocating for is for more 
opportunities for livelihoods for those people to be opened up 
in the countries where they are. We have seen that the average 
refugee crisis now lasts about 10 years and it seems that Syria 
will be likely to certainly not be an exception and perhaps 
stretch that amount even longer. It is really important that 
aid gets to people where they are and not just focusing on the 
camps, and that people can be able to work for themselves to 
provide for their own families and really have that dignity 
that through working comes in being able to take care of 
yourself.
    The process of resettlement as I said is available to 
people who are outside of the camps. Most of them though are in 
Jordan and Turkey. There is not a processing facility as far as 
I know, as the last I checked, available in Erbil for the U.S. 
to process people there, and there has been really a lot of 
delays due to space in the Embassy in Beirut for there to be 
interviews conducted in Lebanon. So we are seeing the majority 
of people who are being processed happening in Jordan and 
Turkey.
    It is worth again noting that the process is incredibly 
expensive. It takes usually 2 to 3 years. We unfortunately just 
heard the really tragic news that one of the families that we 
were working with who were undergoing this process, they are a 
family of seven from Syria. They are living in northern Jordan. 
They have five children, three of whom have very serious 
medical conditions. We just received the word that the youngest 
of their children, a 1-year-old boy who really required open 
heart surgery died just a few days ago. They have already gone 
through two interviews at the Embassy. They are in this very 
expensive----
    Ms. Bass. Why did he not get the medical treatment or he 
died in the process of receiving the treatment?
    Mr. Gottschalk. He wasn't able to have the surgery that he 
needed, and their hopes were really pinned on coming to the 
U.S. They have been through I don't know how many months of 
screening process, two interviews which of course requires----
    Ms. Bass. When a situation like that where there is a life-
threatening disease we don't expedite?
    Mr. Gottschalk. I don't think there are that many 
opportunities. Certainly on the security side those processes 
do take a long time. And I think this is one of the reasons 
that our response to some calls for a pause to the resettlement 
process----
    Ms. Bass. Right.
    Mr. Gottschalk [continuing]. To observe it, we wanted to 
really educate people and particularly Members of Congress that 
the dangers that that kind of pause could bring. It sounds very 
reasonable and something that might give us an opportunity to 
reassess.
    But the way their system works is that people who are in 
the midst of the process who have various processes, steps, 
have checks and screening processes, those checks will expire 
and they will have to start again from scratch. And people like 
that family would have to restart if we were to pause that 
process. So what we are trying to emphasize is----
    Ms. Bass. Oh, wait a minute, if we were to pause the 
process then they would have to go back?
    Mr. Gottschalk. In all likelihood, yes.
    Bishop Kalabat. If I may also continue with what Mr. 
Gottschalk was saying that in Turkey, I was there in April and 
visited, was able to celebrate Easter with many of the 
refugees. In a minimum of 10 to 12 different regions in Turkey, 
when you register with the United Nations as a refugee your 
first interview in 2022. That is interview, that is not----
    Ms. Bass. You register today?
    Bishop Kalabat. If you register today, actually those who 
registered had already been registered in June--I am sorry, in 
April of this year. Their first appointment is in 2022, 2023.
    Ms. Bass. Why did we say it was a 2-year process then?
    Bishop Kalabat. I do know of refugees that have been there 
for 7, 8, 9 years. I do know that also Homeland Security have 
gotten cases where everything is ready, everything is done, and 
in many cases, and we have proof and we have the files where it 
has been 9 years, 10 years, 11 years, 13 years.
    Ms. Bass. So you have seen what legislation we have been 
discussing in passing over the last few days? Well----
    Bishop Kalabat. I have not seen the legislation, no. I am a 
little behind that to be honest. But I can say----
    Ms. Bass. But we are making it slower.
    Bishop Kalabat. Well--yes.
    Ms. Bass. What did we do yesterday?
    Bishop Kalabat. I think we froze it for a while.
    Ms. Bass. Oh, visa waiver. A couple of weeks ago, or was it 
a week ago that we slowed it up?
    Bishop Kalabat. The case with Homeland Security, these are 
cases that are already done that just need to do--I mean, there 
has been no response. If it is denied, it is denied. It is not 
even a denial, it is cases that are lost in some cases in some 
issues. And to be able to deal with people and countries that 
are hosting them such as Jordan and Lebanon, they are 
overwhelmed, Turkey as well.
    Ms. Bass. Oh, I know. I know, especially Jordan too.
    Bishop Kalabat. So processing centers are extremely 
important to have. I am working with the United Nations trying 
to get processing centers. And also allowing different 
countries who have avowed to say, you know what, we will take 
an X amount of refugees from these particular situations, and 
if they are not processed then there is nothing that can be 
done.
    Ms. Bass. So Mr. Ismail, you are proposing that we kind of 
fast forward all that, right? I mean, the 30,000 people you are 
talking about----
    Mr. Ismail. Yes, we are not saying that the U.S. should 
bring all of them----
    Ms. Bass. Oh, I am sorry, did you want----
    Bishop Kalabat. No, no. I am good.
    Ms. Bass. Oh, okay.
    Mr. Ismail [continuing]. But just could help them, many of 
those families that lost just more than half of their family 
members, and there is just no way that they can go back to Iraq 
because----
    Ms. Bass. Yes, but given this process, I guess I am 
asking----
    Mr. Ismail. It is the same thing, where they provide their 
UNHCR PAPER. And they have many of those. They give them like 7 
years, 8 years. And also we have some sponsored by a private 
group. There are other people, they have an interview in less 
than 6 months. So there is something going on that is not 
right. They don't get equal treatment. And there are many of 
those that especially in dealing with for the kind of easy 
cases, I don't know how many they have in Canada. They give 
them like, probably the soonest one they give like more than 5 
years.
    Ms. Bass. Okay.
    Mr. Ismail. So I think 5 years, how they are going to 
survive.
    Ms. Bass. Right. Thank you.
    Mr. Smith. Thank you, Ms. Bass.
    Let me just ask a question about disproportionality of 
those who are Christian who come here. Over the last 5 years 
the estimates are that there has been one Yazidi, 53 Syrian 
Christians, and that 2.6 percent of the 2,003 Syrian refugees 
that have come to the United States are Christian from Syria, 
so disproportionate to the need.
    Mr. Anderson, you spoke very eloquently to the issue of how 
there is a discrimination that happens starting in the camps, 
or at least those under protection of the UNHCR. That seems to 
be an area ripe for reform. One Yazidi, 53 Syrian Christians in 
5 years. That is outrageous, I believe. And very few Jews, 
Baha'is, or Zoroastrians as well, like 10 total.
    Maybe, Mr. Anderson, you might want to expound a little bit 
on what needs to be done on the refugee side. And secondly, in 
the letter that was signed by you and many other people of 
faith, leaders, where there is a call for a limited review, 
when you exclude or narrow what it is that you are looking at 
so unnecessarily, which I think has happened or is happening at 
State, it is like a fireman entering just one room in a burning 
building and concluding that one room of that building is on 
fire while the whole building is ablaze.
    And so my question would be why the limited review?
    Again going back to Dr. Stanton who just showed the 
connectivity over the years to this false reliance on terms 
like ``ethnic cleansing'' which have no legal definition and it 
was used extensively at the U.N. and here during Bosnia as well 
as in Croatia.
    So if you could, what could we do to get it right 
immediately so that these refugees--and follow-up to Ms. Bass, 
there has been a vote on pausing but it is not law. Nothing 
precludes the person who was so sick getting that help right 
now from this administration, and why haven't they? I mean that 
is what my colleagues and I often do with case work, we try to 
find someone who is really, really being hurt, whether it is a 
health issue or whatever, in trying to find a way through the 
bureaucracy to mitigate that pain.
    So Mr. Anderson, did you want to touch on that and any 
others, because we are going to have to conclude in a minute 
because there are five votes on the floor.
    Mr. Anderson. Well, then let me just say quickly I think 
that it is very clear that the religious minorities are not 
welcome and do not feel safe in the camps. And therefore if the 
process hinges on being in the camps, we have to find 
alternative mechanisms to go out and register these people 
outside of the camps and that requires an extra effort. I think 
that is why the designation of genocide is so important because 
it gives priority to these vulnerable minorities who, as Mr. 
Ismail said, cannot go back to their communities. Their homes 
are destroyed or occupied by other individuals. They have no 
opportunity. We are talking about 5 or 10 years to get a visa 
and immigrate to another country. It may be that amount of time 
before they could go back to their own communities, but by that 
time what are those communities going to look like? They are 
going to be totally populated by people who are not just going 
to move away and say come back to your homes that you left 10 
years ago or 5 years ago. So I think the designation of 
genocide is essential to prioritize these minority communities 
that have no alternative in the region.
    Mr. Stanton. Just to reiterate that our conclusion as 
genocide scholars is that when lesser terms, weaker terms, are 
used it is a sure indicator of an unwillingness to act. In 
other words it is a sure indicator of lack of political will. 
And in this case what we have got is a lack of political will 
to accept Christians on a preferential basis as the refugees 
that we will accept in this country.
    I think there is a general view that there should be no 
preferences at all. In fact, I think President Obama has said 
such, almost exactly that. And our view is that in fact certain 
groups are being targeted, and let's call what that means. 
Let's call out the right name and that is called genocide. And 
that is why we think what is going on when they are making 
these selective determinations is an expression of lack of 
political will.
    Mr. Smith. Yes, Mr. Gottschalk.
    Mr. Gottschalk. If I could just have, Mr. Chairman, in 
response to your point about and Mr. Anderson's point about 
expanding the referral process, I think that is something we 
would absolutely agree with, and just want to let you know that 
there is in fact precedent for that. I believe at present there 
is one NGO that has been authorized to conduct referrals to the 
U.S. for resettlement. There is, I think it is a short 
curriculum that NGOs would have to go through in order to, or 
any contractor would have to go through, to be able to learn 
what criteria the U.S. is looking for, and it is something that 
we would very much like to see. It would be really a way of 
expanding the reach of resettlement referrals across the 
region.
    And also just finally to add, the funding shortages that 
you made the subject of this hearing and that I testified about 
and others have mentioned has directly resulted in many, many 
refugee families really falling through the cracks. Because 
these appeals are so underfunded, 40 percent inside Syria, 
about 50 percent in the regional response, the prioritization 
is given to lifesaving services, which means that social 
services and the types of activities that are really about 
protection and making sure that communities and refugees who 
are living in host communities where the majority are can be 
safe and can resolve some of their own challenges--those type 
of programs just aren't being funded.
    They are the very types of programs that would identify 
vulnerable people, get them to where they could get referred 
for resettlement or for treatment or whatever they might need 
in the host community if that was in fact the case, but those 
very programs are the ones that are really first on the 
chopping block when it comes to funding shortages.
    Mr. Smith. Well, thank you. And that was an eye opener for 
many of us at the hearing I chaired in September just how 
underfunded it is, so your point is very well taken. And we are 
pushing the administration to do more, and our allies too. We 
have asked them to give us the list of those who have not come 
forward with the pledges at least, and what diplomatic efforts 
are being done by the administration to say to Saudi Arabia--I 
asked the Saudi Ambassador when he was here a week ago. He was 
claiming that they were giving 2.5 million Syrians refuge and 
that they had spent $1 billion last year, I think $1 billion 
was the total; it was approximately $1 billion.
    So your point is well taken and I agree with you 
wholeheartedly. We have got to push, and I said even if it is 
seen as a bridge, we try to get the others to come up with the 
money, but this is a short-term tourniquet that is needed 
because people, and he himself, Shelly Pitterman said, that the 
trigger for the mass exodus to Europe was undoubtedly the 
funding shortfall for humanitarianism exacerbated by the World 
Food Programme's 30 percent cut. They said they don't care, we 
are off, we are leaving. And it was a very, it was a point well 
taken. We had PRM's Assistant Secretary here and asked what 
could be done. We are still trying to work with them, so I 
agree wholeheartedly on that.
    Mr. Gottschalk. If I might as you wait for the list from 
the administration, we, Oxfam, actually has a list of major 
countries and what they have donated according to their fair 
share. According to our statistics, Saudi Arabia has only 
contributed 6 percent of their fair share this year; Qatar 17 
percent; United Arab Emirates 38 percent.
    Mr. Smith. Wish I had that last week, but I follow----
    Mr. Gottschalk. I will pass it on to your office.
    Mr. Smith. Let's make it a part of the record, if you don't 
mind.
    Mr. Gottschalk. Absolutely.
    Mr. Smith. Thank you.
    Mr. Gottschalk. Thank you.
    Mr. Smith. Any other comments before we conclude? There is 
a vote and I am going to have to run. I do thank you so very 
much. I think the President got it wrong when he said that we 
don't want a religion test. This has to do with who is being 
targeted. It is a whole different issue than a religious test.
    And I again underscore my first trip on human rights issues 
was to Moscow and Leningrad, 1982, during my first term on 
behalf of Soviet Jews, and I was very happy that our country 
was wholeheartedly using its policies, Jackson-Vanik in 
particular, to protect Jewish people who were being put into 
psychiatric prisons or worse, killed.
    Yes, Mr. Ismail?
    Mr. Ismail. Two important points, we hope that for the 
short term solution, you can bring as many as possible of those 
needy refugees, especially those traumatized ones, whether they 
are in Syria, in northern Iraq, in Jordan, or in Turkey. And 
for the long term solution, we hope that you could work with 
the Iraqi Government and the Kurdish Government to create a 
safe haven for the Yazidis and other minorities.
    Mr. Smith. You had that in there as your number three 
point, I saw that.
    Mr. Ismail. So that these people can survive in an ancient 
homeland where we survived for thousands of years. Yes, there 
are many people who because of fear, they want to get out, but 
there are also thousands of people who say we are ready to die, 
but we are not ready to leave our homeland.
    Mr. Smith. If that is done it has to be better than what we 
have done before. When Srebrenica and other safe haven areas 
were designated they became mustering areas for killing.
    Mr. Ismail. Now most of these, if you ask, they are going 
to tell you this is the end of Yazidis in the Middle East 
because no action has been taken actually to save them, to 
provide safety and security for them, this could be the end of 
the Yazidi people in the Middle East. Thank you.
    Mr. Smith. The meeting is adjourned and I thank you all so 
very much.
    [Whereupon, at 4:21 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------  
                              
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
